'!
------ <•'

n(C^

A

^ At- A

\S

\J? ti *2; *4
IN THE

SUPREME COURT OF THE UNITED STATES

Sinclair, Ellis Jr.-Petitioner
s

II'43 §8$® a®

Vs.
United States of America-Respondent
( List of Parties)

f

filed

SEP 09 2020
PETITION FOR WRIT OF CERTIORARI

-JiP^ifCOUER?LERK

u.s.

Fourth Circuit Court Of Appeals
(name of Court that last ruled on merits of case)

PETITION FOR WRIT OF CERTIORARI

Sinclair Ellis Jr.

Schuylkill Prison Camp P.O. Box 670
Minersville, Pa. 17954

received
'

SEP 1 6 2020

*0

0

QUESTIONS

Where as the District Court has 30 days on the Speedy Trial Clock
to make a ruling on a pre-trial motion under §3161(H)(l)(J). If the
Distrcit Court take 90 days (without an,ends-of-Justice ruling on
the record) to make a ruling on a Pre-Trial motion, is 60 days of the
90 days counted by the Speedy Trial Clock?

Where as if. the Speedy Trial 70 day time limit is in Question (under
§3161(c)(l)) before the Petitioner enter a guilty plea,is the petitioner
counsel held accountable for allowing 139 days to surpass the.Speedy
Trial Act Limitation.

Where as did the District Court error by not granting the Petitioner
an C.O.A. when the Petitioner Speedy Trial rights was in Question?

i
i

i (D\

TABLE OF CONTENTS

Question Presented

(i)

List of Parties

(ii)

Table of Contents

(iii)

Table of Authorities

... (iiii)

Jurisdiction

. (iiiii)

Constitutional Provisions

... (iiiiii)

Statement of Facts

(iiiiiii)

Reasons for Granting Writ

(iiiiiiii)

Appendix, (a) (b) below .

(iiiiiiiii)

Certificate of Service ..

(iiiiiiiiii)

Certificate of Compliance

.... (iiiiiiiiiii)

Index to Appendix

Appdix-A

The United States District Court For The District of
Maryland, Northen Division, Fourth Circuit Court of Appeals.
Index to Appendix ...............

Appendix-B

Docket Sheet, ( Exhibit-A)

(3)

%
*

'"V

Table 0f• Autho’ritles’

;J

Zedner v United States 547 US 322,336-38 123 S. Ct. 1029
154 L. ed. 2d 931 (2003)
Bloate v. United States 559 US 196, 130 S. Ct. 1345 176 L. ed.
2d 54 (2010)
Welch v. United States 136 S. Ct. 1257

1265 194 L. ed. 2d 387 (2016)

Slack v. Daniel 529 US 473,484, 120 S. Ct. 1595, 1604 146 L. ed. 2d
542 (2000)
Buck v. Davis 137 S. Ct. 759, 773-74 197 L. ed. 2d. 1 (2017)
Strickland v. Washington 466 US 668, 687, 104 S. Ct. 2052 80 L.
ed 2d. 674 (1984)
Lee V. United States 137 S. Ct. 1958

1965, 198 L. ed. 2d. 476 (2017)

United States v. Trotman 406 Fed. Appx. 799 fourth circuit (2010)
United States v. Martin 2019 U.S. Dist LEXIS 63969 Fourth Circuit
United States v. Henry 538 f.3d 300 Fourth Circuit (2008)
United States v. Johnson 29 f.3d 940 fifth/llth circuit(1994)
United States v. Moss 217 f.3d 426, 433 sixth circuit 2000

Federal Statutes
21
21
18
18
18
18
18
18

USCS
USCS
USCS
USCS
USCS
USCS
USCS
USCS

§
.§
§
§
§
§
§
§

841(a)(1)
846
3161 (H)(1)(F)
3161 (H)(1)(d)..
3161 (c)(1)
3161 (h)(8)
3162 (a)(2)
3161 (H)(7)

7

\

1

IN THE

* t

SUPREME COURT OF THE UNITED STATES

Sinclair Ellis Jr.
Petitioner
Vs
United States Of America
Respondent

PETITION FOR WRIT OF CERTIORARI
I Sinclair Ellis Jr. respectfully Petition for Writ of Certiorari,
and ask this Honorable Court to review the Judgment of the United
States District Court for the District of Maryland ) and The Fourth
Circuit Court Of Appeals. ( for Speedy Trial Violation)

JURISDICTION

The Judgment for the United States District Court For The
District of Maryland was January 27, 2020.
The Judgment for The Fourth Circuit Court of Appeals was
July 24, 2020.
Under 18 USCS 1254(1)>this Honorable Court has Jurisdiction.

(Sj>

I

CONSTITUTION PROVISION AND RULE INVOLVED
The Fifth Amendment of the United States Constitution
provides no person shall be held to answer for a capital or other
wise infamous crime unless on a presentment or indictment of a
Grand Jury except in cases arising, in the land or naval forces
or in the militia when in actual service in time of war or public
danger. Nor shallany person be subject for the same offense to be
twice put in jeopardy of life or limb. Nor shall be compelled in
any criminal case to be a witness against himself, nor be deprived
of life liberty or property, with out Due Process of Law.
Nor shall private property be taken for public use with out
just compensation.

RIGHTS OF THE ACCUSED
Sixth Amendment
In all criminal prosecutions, the accused shall enjoy the ~i
right to a Speedy and public Trial, by an impartial Jury, of the State
and District wherein the crime shall have been committed, which
District shall have been previously ascertained by law, and to be
confronted with the witnesses against him: to have compulsory process
for obtaining witnesses in his favor and to have The Assistance of
Counsel for his defence.

S3

it

STATEMENT OF FACTS

Now comes the Petitioner Sinclair Ellis Jr. that states the following:
The Petitioner claims that his Sixth Amendment right for effective
assistance of counsel, and Speedy Trial Rights was violated. Wherefore
the Petitioner will go under the umbrella in Light of Supreme Court
Precedent Zedner v. United States (126 S. Ct. 1976) to show that before
he entered his guilty plea, his counsel was ineffective to allow the
Government to surpass the time limit of the Speedy Trial Clock.
The Petitioner has prepared this Motion for Writ of Certiorari
without the benefit of professional counsel as a pro-se prisoner
litigant. The Petitioner would invoke the liberal Construction of
pleadings standard under Haines v. Kerner 404 US 519,520,520 (1972).
On October 25, 2016 the Petitioner was indicted for
Conspiracy to Distribute and possess with intent to distribute Herio.n and
Cocaine in violation of Title 21 USCS 841(a)(1), 21 USC §841, 846. ,
On August 22, 2017 the Petitioner was Superseded (indictment) for
Conspiracy to Distribute and possess with intent to distribute Heroin
and Cocaine in violation of Title 21 USCS 841(a)(1), 21 USC §§841, 846.
The Petitioner plead Guilty on February 16, 2018. The Petitioner was
sentenced on April 26, 2018. Section 2255 is the proper Gatekeeper for
ineffective assistance of counsel, citing Strickland v. Washington "
466 US 668, 80 L. ed 2d. 674, 104 S. Ct. 2052 (1984). In Strickland
the Supreme Court stated" a convicted defendant alleging ineffective
assistance of counsel must show not only that counsel was not functioning
as the counsel guaranteed by the Sixth Amendment so as to provide
reasonably effective assistance, but also that counsel's errors were
so serious as to deprive the defendant of a Fair Trial because of a
reasonable probability that , but for counsel's unprofessional errors,
the results would have been different. In this Motion for Writ of
Certiorari the Petitioner will demonstrate the uncounted days thats
in Question by the Speedy Trial Clock. Which the Petitioner counsel
ignored and due to this inconsideration counsel deficient performance
caused the Petitioner Prejudice. In light of Buck v Davis (citing)
137 S. Ct. 759, 197 L. ed 2d. 1 2017 US LEXIS 1429 85 u. S. 1. W.
4037 fla. L.
(7)
A

r
*

Ln Buck"states" When the District Court denies relief on the merits
a prisoner satisfies this standard by demonstrating that reasonable
Jurists would find that the District Court assessment of the
Constitutional claims is debatable or wrong, see Slack v. Danial 529
US 473, 484, 120 S. Ct. 1595 146 L. ed. 2d. 542, (2000) also see MillerEl v Cockrell 537 US 322 336-38 123 S. Ct. 1029 154 L. ed. 2d. 931
(2003). Welch v. United States 136 S. Ct. 1257, 1265 194 L. ed. 2d.
387 (2016). When the District Court denied the Petitioner Application
for C.O.A. pursuant to 28 USC§2253(c)(2) the foundation of the District
Court Ruling was not about the days in Question concerning the Speedy
Trial Clock presented by the Petitioner, but the Court ruled in favor
of the Government Statement that the Petitioner waived his Speedy Trial
rights when he plead guilty. When the Petitioner was going through
the Pre-Trial process he was unaware that his right to a Speedy Trial
was in Question and counsel concern was foreclosed. In Zedner v.
United States citing- 547 US 489, 502, 126 S. Ct. 1976 164 L. ed. 2d.
749 2006 US LEXIS 4509. The Supreme Court Stated" this Court rejects
the District Court reliance on § 3162(a)(2) which provides that a .
defendant whose trial doe's not begin on time is deemed to have waived
the right to move for dismissal if that motion is not filed prior to
trial or entry of a guilty plea. That section makes no mention of
Prospective waivers, and there is no reason to think that Congress .
wanted to treat prospective and retrospective waivers similarly.
Allowing prospective waivers would seriously undermine the Act because
in many cases, the prosecution, defense, and court would all like to
opt out, to the detriment of the public interest. Section 3162(a)(2)
retrospective waiver does not pose a comparable danger, because the
prosecution and the court cannot know until the trial starts or the
guilty plea is entered whether the defendant will forgo moving to dismiss
they retain a strong incentive to make sure the trial begins on time.
To prove a claim of ineffective assistance of counsel a defendant must
show that counsel's performance was deficient and (2) that the deficient
performance prejudiced the defense ( Strickland v. Washington). Under
the second prong of the Strickland test in the context of a conviction
following a guilty plea, a defendant can show prejudice only by
demonstrating a reasonable probability that but for counsels errors
he would not have plead guilty and would have insisted on going to trial
citing Lee v. United States 137 S. Ct. 1958, 1965 198 L. ed. 2d. 476
(-2017)
(7) 2

*.»

1,

Now the Petitioner will reflect back to the record. In the District
Court order on January 27, 2020 the court stated" on January 4, 2017
the Government filed an unopposed motion to exclude time from Speedy
Trial Act computations from November 1, 2016 through and including
February 1, 2017. The Court granted the motion based upon the parties
need to review discovery to prepare for trial and on going plea
discussions. AS a result, the Court made specific findings that the
Ends-of-Justice were served by granting the motion. In United States
v. Martin ( 2019 U.S. Dist LEXIS 63969 Fourth circuit) an Opinion
by Senior Judge David A. Faber stated" the Government asks that time
spent in plea negotiations be excluded by the court (citing cases
holding that ends-of-justice continuances maybe appropriate for plea
negotiations). In so doing the United States is infact asking the court
to grant an ends-of-justice continuance after the fact. This the court
cannot do. What a District Court may not do is allow the deadline to
expire and then later attempt to rationalize the delay as having been
required by the interests of Justice, see United States v. Moss -217
f•3d 426, 433 (six circuit 2000). also see United States v. Henry 538
.
f. 3d at 304-06, 2008. The Fourth circuit Court of Appeals rejected
the District court attempting to make ends-of-justice findings
J
approximately three months after granting continuance where stated
' f t
findings were not supported by record. The Act requires that when a
District Court grants an Ends-Of-Justice continuance it must set forth
in the record of the case, either orally or in writing, its reasons
for finding that the ends-of-justice are served and they out weigh
other interests ( 18 USC §3161(H)(8) Zedner) Now the Petitioner will
present the facts from the Court Docket Sheet ( see Appendix-B, exhibit-A)
to reflect the days in Question concerning Speedy Trial violation.
The Petitioner made his initial appearance on October 13, 2016.
The District Court didnot start the Speedy Trial clock until the last
co-defendant (Maria Smith) made her initial appearance in Maryland
District Court on November 1, 2016. In the District Court order, the
Court Quoted the Government capricious statement, The Government claim
that he filed a motion on January 4, 2017 (which this record is not
founded on the court docket) to exclude time from the Speedy trial
clock from November 1, 2016 (before January 4) and February 1, 2017
(after January 4) Furtheremore in the District Court order, the
Judge made an ends-of-justice ruling that excluded 63 days from the
Speedy Trial clock. This Bribourism action by the Government and

district court went against the Speedy Trial Acts demands,
(citing) United States v. Johnson 29 F.3d 940-5th/llth circuit.
In Johnson the Court of Appeals stated"If no hearing is required a
motion (18 USCS §3161(H)(l)(f) allows exclusionary time for a prompt
disposition of the motion. Only that time needed for a prompt disposition
however is excluded under § 3161(H)(1)(f). The point at which time
will no longer be excluded is determined by 18 USCS §3161(h)(l)(j)
which permits an exclusion of 30 days from the time a motion is actually
under advisement. There after the fact that a motion is pending or is
other wise unresolved does not toll the speedy trial clock. Now the
Petitioner will continue to demonstrate the days that was in Question
from the Speedy Trial Clock which was ignored by The District Court
and to show ineffective assistance of counsel. The last co-defendant
allegedly made her initial appearance (Maria Smith) on November 1, 2016
moreover the Government filed a motion on January 4, 2017 to exclude
time from the Speedy Trial Clock from November 1, to February 1, 2017
from Nov. 1, 2016 to January 22, 2017 thats 82 days thats in question
from the Speedy Trial Clock. On January 23, 2017 co-defendants- Marc
Williams, Maria C. Smith and Yesenia filed motions. ( no motion s^jw^fe
filed by Petitioner counsel) Consent Motion by Maria Smith on February
9, 2017 order granting motion for Maria on Feb. 24, 2017. Maria plea
agreement motion to be sealed March 9, 2017. Yesenia Plea agreement'
motion to be sealed April 6, 2017. Sinclair Ellis Jr. Motion to withdraw
by attorney on may 1, 2017 . (uncounted days) On August 24, 2017 Sinclair
Ellis Jr. was appointed counsel. No other motions was filed on the
record by co-defendants or Petitioner until January 6, 2018. Thats
127 days plus 82 days equal 209 days subtract 70 days limitation
equals 139 days thats inviolation of the Speedy Trial Act §3161(c)(l)

(7) 4
.1

■i

REASON FOR GRANTING WRIT OF CERTIORARI
On behalf of the Petitioner s Fifth Amendment right to Due Process
and the Petitioner Sixth Amendment Right to a Speedy Trial and right
to Effective Assistance of counsel. The Petitioner pray that this
Honorable Court will take inconsideration of the evidence from the Court
Docket Sheet that show the 139 days that surpassed the 70 day Speedy Trial
clock. And that the Petitioner counsel s performance was deficient for
not objecting that the Petitioner Speedy Trial rights are in Question
Wherefore the Petitioner is asking this Honorable Court to G.V.R
this matter back to the District Court to hold a Hearing on Whether
the indictment be dismissed with Prejudice or Without Prejudice.

(8)
7

